                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 1-08010008                                                                   Page 1 of 1



         This investigation was initiated pursuant to a proactive review1 of awards where no project
         reports had been submitted and funds had been drawn-down after the expiration date. A review
         of NSF databases for 18 of an institution's2 NSF awards revealed thata significant amount of
         funds3 were drawn-down after the award expiration dates.

         We received and reviewed financial information from the grantee institution to determine the
         validity of the post-expiration draw-downs. The general ledgers and supporting documentation
         provided for the awards indicated all charges had been made to the awards within 60 days after
         the expiration dates and charges were incurred during the time period of the awards.

         Accordingly, this case is closed.




          ' PR-07-06-0001
           University of Maryland
           $358,218.38



NSF OIG Form 2 (1 1/02)
